                      art




          U.S. CENTRAL COMMAND YEAR 2ooO ISSUES



Report No. 98-173                          July 2, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DGDIG.OSD.MIL.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

CENTCOM               U.S. Central Command
Y2K                   Year 2000
                           INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON. VIRGINIA 22202




                                                                            July 2, 1998
MEMORANDUM FOR COMMANDER IN CHIEF, U.S. CENTRAL COMMAND
               DIRECTOR, JOINT STAFF

SUBJECT: Audit Report on U.S. Central Command Year 2000 Issues
         (Report No. 98-173)


       We are providing this report for information and use.

        We considered management comments on a draft of this report in preparing the
final report. Management comments conformed to DOD Directive 7650.3; therefore,
no additional comments are required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone at (703) 604-9049 (DSN 664-9049) or
Ms. Dianna J. Pearson at (703) 604-9063 (DSN 664-9063). See Appendix C for the
report distribution. The audit team members are listed inside the back cover.




                                         Robert 5. Lieberman
                                      Assistant Inspector General
                                              for Auditing
                        Offke of the Inspector General, DOD
Report No. 98-173                                                           July 2, 1998
   (Project No. 8AS-O006.01)

                   U.S. Central Command Year 2000 Issues

                                Executive Summary

Introduction. This report is one in a series of reports being issued by the Inspector
General, DOD, in accordance with an informal partnership with the Chief Information
Officer, DOD, to monitor DOD efforts to address the year 2000 computing challenge.
For a listing of audit projects addressing this issue, see the year 2000 webpage on IGnet
at < http://www.ignet.gov>      .

Information technology systems have typically used two digits to represent the year,
such as “98” representing 1998, to conserve electronic storage and reduce operating
costs. With the two-digit format, however, the year 2000 is indistinguishable from
1900. As a result of the ambiguity, computers and associated systems and application
programs that use dates to calculate, compare, and sort could generate incorrect results
when working with years after 1999.

Audit Objectives. The overall audit objective was to evaluate the status of the U.S.
Central Command’s progress in resolving the year 2000 computing issue. Our audit
focused on the following year 2000 issues: leadership support and awareness,
management and resolution strategy, system assessments, prioritization, system
interfaces, testing, risk analysis and contingency planning, and support received from
responsible Service executive agents.

Audit Results. The U.S. Central Command has recognized the importance of the year
2000 issue and has taken numerous positive actions in addressing the year 2000
problem. The progress that the U.S. Central Command made in resolving the year
2000 computing issue is not complete. Unless the U.S. Central Command, the Joint
Staff, the Services, and Defense agencies make further progress, U.S. Central
Command faces a high risk that year-2000-related disruptions will impair its mission
capabilities. See Part I for details of the audit results.

Summary of Recommendations. We recommend that the Commander in Chief, U.S.
Central Command, monitor and implement revisions to the DOD Year 2000
Management Plan; complete the identification of mission-critical supporting systems
and system interfaces; research year 2000 compliance of vendor software and test
mission-critical vendor software; prepare written interface agreements and develop
contingency plans for mission-critical systems that the U.S. Central Command
manages; document test plans to show how managed systems were deemed compliant
and determine the level of year 2000 compliance; coordinate year 2000 solutions with
the Component Commands; and use selected command and joint exercises to test
year 2000 scenarios in an operational environment. We recommend that the Director,
Joint Staff, develop an inventory of and assist the unified commands in obtaining year
2000 information on mission-critical supporting systems that Services or other
organizations manage; implement procedures to monitor and track the status of
mission-critical systems; assist the unified commands in testing systems and
applications common to the unified commands; disseminate year 2000 information on
commercial off-the-shelf products and Government off-the-shelf products; and use
selected joint exercises to test year 2000 scenarios in an operational environment.

Management Comments. The U.S. Central Command and the Joint Staff concurred
with the recommendations. See Part I for a summary of management comments and
Part III for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                             i

Part I - Audit Results
      Audit Background
      Audit Objectives
      Status of the U.S. Central Command Year 2000 Program

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                18
        Methodology                                          19
        Prior Audit Coverage                                 19
      Appendix B. Other Matters of Interest                  20
      Appendix C. Report Distribution                        22

Part III - Management Comments
      U.S. Central Command Comments                          26
      Joint Staff Comments                                   29
Part I - Audit Results
Audit Background
    The year 2000 (Y2K) problem is the term most often used to describe the
    potential failure of information technology systems to process or perform
    date-related functions before, on, or after the turn of the century. The Y2K
    problem is rooted in the way that automated information systems record and
    compute dates. For the past several decades, systems have typically used two
    digits to represent the year, such as “98” representing 1998, to conserve on
    electronic data storage and reduce operating costs. With the two-digit format,
    however, 2000 is indistinguishable from 1900. As a result of the ambiguity,
    computers and associated systems and application programs that use dates to
    calculate, compare, or sort could generate incorrect results when working with
    years following 1999. Calculation of Y2K dates is further complicated because
    the Y2K is a leap year, the first century leap year since 1600. The computer
    systems and applications must recognize February 29, 2000, as a valid date.

    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an Executive Order, “Year 2000
    Conversion, ” February 4, 1998, making it policy that Federal agencies ensure
    that no critical Federal program experiences disruption because of the Y2K
    problem. The Executive Order also requires that the head of each agency
    ensure that efforts to address the Y2K problem receive the highest priority
    attention in the agency. In addition, the General Accounting Office has
    designated resolution of the Y2K problem as a high-risk area, and DOD has
    recognized the Y2K issue as a material management control weakness area in
    the FY 1997 Annual Statement of Assurance.

    DOD Y2K Management Strategy. In his role as the DOD Chief Information
    Officer, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan” (DOD Management Plan) in April 1997. The DOD Management Plan
    provides the overall DOD strategy and guidance for inventorying, prioritizing,
    fixing, or retiring systems, and monitoring progress. The DOD Management
    Plan states that the DOD Chief Information Officer has overall responsibility for
    overseeing the DOD solution to the Y2K problem. Also, the DOD Management
    Plan makes the DOD Components responsible for the five-phase Y2K
    management process, consisting of awareness, assessments, renovations,
    validations, and implementation actions. The DOD Management Plan includes a
    description of the five-phase Y2K management process.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) is in the process of issuing an updated DOD Management Plan,
    which accelerates the target completion dates for the renovation, validation, and
    implementation phases.




                                        2
In a memorandum dated January 20, 1998, for the heads of executive
departments and agencies, the Office of Management and Budget established a
new target date of March 1999 for implementing corrective actions to all
systems. The new target completion dates are September 1998 for the
renovation phase and January 1999 for the validation phase.

The Joint Chiefs of Staff. The Chairman of the Joint Chiefs of Staff is the
principal military advisor to the President, the Secretary of Defense, and the
National Security Council. The Joint Chiefs of Staff have no executive
authority to command the combatant forces. The Secretaries of the Military
Departments assign all forces under their jurisdiction to the unified commands
to perform missions assigned to those commands.

The Joint Staff Director, Command, Control, Communications, and Computer
Systems (J6), has been designated by the Chairman of the Joint Chiefs of Staff
to oversee the unified commands’ and Joint Staffs implementation of the DOD
Management Plan.

        The Joint Staff. The Joint Staff assists the Chairman of the Joint Chiefs
of Staff with unified strategic direction of the combatant forces; unified
operation of the combatant commands; and integration into an efficient team of
land, naval, and air forces.

        Year 2000 Action Plan. The Joint Staff Year 2000 Action Plan
provides the unified commands and Joint Staff directorates the corporate
strategy and management approach for addressing the Y2K problem. The
action plan uses the accelerated target completion dates for the renovation,
validation, and implementation phases in the draft DOD Management Plan. The
action plan provides that the unified commands should target
December 31, 1998, for completion of all Y2K efforts.

U.S. Central Command. The U.S. Central Command (CENTCOM) is one of
nine unified commands in the Department of Defense. The CENTCOM was
activated on January 1, 1983. The CENTCOM is the administrative
headquarters for U. S . military affairs in 20 countries of the Middle East,
Southwest Asia, Northeast Africa, and the Arabian Gulf. That region contains
more than 70 percent of the world’s oil reserves, making it vital to the
economies of the United States and its allies. The CENTCOM reports through
the Chairman of the Joint Chiefs of Staff to the Secretary of Defense. The
overall mission of CENTCOM is to support U.S. and free-world interests by:

       l   ensuring access to theater oil resources;

         l helping friendly regional states to maintain their own security and a
collective defense;
             l maintaining an effective and visible U.S. military presence in the
     region; and

             l  deterring threats from hostile regional states and providing U.S.
     military force into the region, if necessary.

     The CENTCOM is supported by component commands from each Service that
     provide forces as required to conduct operations. The component commands
     are the U.S. Army Forces Central Command, the U.S. Naval Forces Central
     Command, the U.S. Central Command Air Forces, and the Special Operations
     Command Central Command. Additionally, the Joint Task Force South West
     Asia and Security Assistance Offices in several nations complement the U. S.
     military forces in the region by coordinating the efforts of CENTCOM with
     their respective host nations.



Audit Objectives
     The overall audit objective was to evaluate the status of the progress of
     CENTCOM in resolving its Y2K computing issue. Our audit focused on the
     following Y2K issues: leadership support and awareness, management and
     resolution strategy, system assessments, prioritization, system interfaces,
     testing, risk analysis and contingency planning, and support received from
     responsible Service executive agents. See Appendix A for a discussion of the
     audit scope and methodology and summary of prior audit coverage, and
     Appendix B for other matters of interest.




                                          4
Status of the U.S. Central Command
Year 2000 Program
The CENTCOM has taken several positive actions to address its Y2K
problem. However, CENTCOM and the Joint Staff have not completed
all of the actions necessary to minimize the adverse impact of Y2K date
processing in mission and mission-support systems. Progress is not
complete because the Joint Staff needs to compile a comprehensive list
of mission-critical supporting systems for all of the unified commands to
include the system manager and the status of Y2K compliance. The
CENTCOM needs to:

       l   identify the mission-criticality of all of its supporting systems;

        l  monitor the Joint Staff unified command supporting systems
list and assess the impact to the CENTCOM area of responsibility
mission and develop operational contingency plans accordingly;

       l   determine Y2K compliance of vendor software and test
mission-critical commercial off-the-shelf products;

        l  complete the identification of system interfaces and prepare
written interface agreements for mission-critical systems that
CENTCOM manages;

        l  develop contingency plans for CENTCOM-managed
mission-critical systems;

       l  document test plans to show how CENTCOM-managed
systems were deemed compliant and determine the level of Y2K
compliance;

      l  coordinate Y2K solutions and contingency plans with its
component commands to ensure mission accomplishment; and

       l  use selected command and joint exercises to test Y2K scenarios
in an operational environment.

Unless the CENTCOM, the Joint Staff, the Services, and Defense
agencies collectively make further progress, CENTCOM faces a high
risk that Y2K-related disruptions will impair its mission capabilities.
Status of the U.S. Central Command Year 2000 Program



Y2K Management Planning, Strategy, and Oversight
      Y2K Program Management. The CENTCOM Director of Command and
      Control, Communications, and Computer Systems (56) has responsibility for the
      CENTCOM Year 2000 Program. The Director provides status briefings on
      Y2K to the Commander-in-Chief on a monthly basis.

      The CENTCOM has taken the following actions as part of its efforts to address
      the Y2K problem:

             l   prepared the CENTCOM Y2K project plan,

             l   appointed a Y2K point of contact for all of CENTCOM,

              l  identified technical and management points of contact for each
      functional directorate and proponent organization,

            l  implemented a corporate strategy to solve Y2K problems by
      implementing the DOD Management Plan, and

             l   established a CENTCOM Y2K web page.

      The CENTCOM Y2K web page makes available various Y2K documents,
      including the CENTCOM Y2K project plan, the systems inventory database,
      minutes of the computer support coordinator meetings, and Y2K points of
      contact.

      Y2K Project Plan. The CENTCOM Y2K project plan is intended to provide
      the overall strategy and actions necessary to accomplish the following:

             l   identify all CENTCOM systems that may be affected by the Y2K
      problem,

             l   determine the corrective measures that should be taken, and

             l   implement those corrective measures.

      The project plan is tailored to the DOD Management Plan and is intended to
      address the Y2K problem by implementing the five phases required by the DOD
      Management Plan. However, the project plan does not require the CENTCOM
      to monitor changes to the DOD Management Plan and update its plan based on
      changes to the DOD Management Plan. Each CENTCOM directorate is to
      identify a point of contact to carry out the actions called for in the project plan.




                                           6
                        Status of the U.S. Central Command Year 2000 Program


     Y2K Participation. The CENTCOM addresses Y2K issues at the monthly
     computer support coordinators meetings. Each CENTCOM directorate and staff
     organization has a computer support coordinator. The meetings are a forum to
     discuss and address computer-related issues, including Y2K. Additionally, the
     Y2K point of contact assigns Y2K taskings to the computer support
     coordinators.



Identification of Systems
     The CENTCOM identified 469 managed and supporting systems and software
     applications to fulfill its mission and everyday operations. Managed systems are
     those systems for which CENTCOM has program management responsibility.
     Supporting systems are those systems that Services or other organizations
     manage. As of January 1998, CENTCOM identified 15 CENTCOM-managed
     systems and 235 supporting systems. Additionally, CENTCOM determined that
     it uses 219 commercial off-the-shelf products. As the following figure
     indicates, CENTCOM relies heavily on supporting systems.




                                                     CENTCOM-Managed
                                                          6 Percent




                                                     supporting systems
                                                          94 Percent




     CENTCOM Inventory of Systems and Software
Status of the U.S. Central Command Year 2000 Program


      Systems Inventory. The CENTCOM began developing a list of software and
      systems in December 1996. From December 1996 through March 1997, the 56
      directorate tasked the computer support coordinators to do the following:

              l review the command standard and approved software listing for
      continued use and undocumented software,

             l   identify any networks and hardware within their directorates,

             l   identify any systems or software within their directorates,

              l identify any systems or software within their directorates provided by
      outside agencies, and

             l   inform the Y2K point of contact of potential Y2K problems.

      In July 1997, the Director of 56 requested that all CENTCOM directorates and
      staff offices review the CENTCOM Y2K software and systems listing for
      accuracy and completeness. In November 1997, the 56 directorate tasked the
      computer support coordinators to review the CENTCOM systems list and
      identify interfaces for the systems within their directorate.

      The CENTCOM has produced a software and systems inventory spreadsheet,
      which is available at its Y2K web site. The spreadsheet shows the status of
      CENTCOM systems to include the following status categories: user,
      mission-criticality, Y2K compliance, executive agent, Y2K phase, renovation
      method, interfaces, and point of contact.

      As stated, the CENTCOM inventory consists of 469 systems and software
      applications to fulfill mission and everyday operations. To determine the
      potential impact of noncompliance of any of the 469 systems and applications,
      CENTCOM would have to complete its determination of the systems and
      annlications that are mission-critical. The following table nrovides a breakout
      oythe status of CENTCOM systems as of January r998. L

                       CENTCOM Systems and Applications

                                                  Mission-Critical
                                                &No         Not Stated     Total

      CENTCOM-managed systems                    9      6        0              15
      CENTCOM-supporting systems                66     45      124             235
      Commercial off-the-shelf products         19     $4      146             219
       Total systems and applications           94    105      270             469




                                            8
                     Status of the U.S. Central Command Year 2000 Program


The J6 directorate made a preliminary determination that 94 systems and
applications are critical to the mission of CENTCOM. However, CENTCOM
has not determined mission-criticality for 270 supporting systems and
commercial off-the-shelf products.

Systems Managed by CENTCOM. The CENTCOM manages 15 systems.
The systems can be categorized as the following:

       l   local area networks,

       l   electronic mail network,

       0 personnel locator,

       l   message processor,

       l   record of clearance,

       l   staff suspense system,

       l   personnel system, and

       l   update status reports.

The CENTCOM is the owner of the code of 4 of the 15 systems that it
manages, and the other 11 systems are systems configured of commercial
off-the-shelf products. The CENTCOM is planning to have all of its managed
systems tested and compliant, not later than October 1, 1998.

CENTCOM Supporting Systems. The CENTCOM has not identified the
mission-criticality and the owners of all its supporting systems. Further,
CENTCOM has not determined the status of Y2K compliance of its
mission-critical supporting systems. The Joint Staff needs to compile a
comprehensive inventory list of mission-critical supporting systems for all of the
unified commands to include system manager and status of Y2K compliance.
Upon completion of the Joint Staff unified command supporting systems list,
CENTCOM needs to monitor and assess the impact to the CENTCOM mission
area of responsibility and develop contingency plans accordingly.

We reviewed the Services’ and the Defense Information Systems Agency’s
mission-critical systems lists. As of November 1997, the lists identified only 20
of the 102 supporting systems belonging to the Services and the Defense
Information Systems Agency as mission-critical. Further, CENTCOM
identified 31 systems as mission-critical that the Services and the Defense
Information Systems Agency did not identify as mission-critical. The
CENTCOM, with the help of its component commands and the functional
directorates, needs to complete the identification of mission-critical supporting
systems because the appropriate executive agents need to be aware of the
systems that are critical to the CENTCOM mission. After CENTCOM has
identified the mission-critical supporting systems, the Joint Staff should assist



                                      9
Status of the U.S. Central Command Year 2000 Program


      CENTCOM and the other unified commands in obtaining Y2K information on
      mission-critical supporting systems that Services or other organizations manage.

      The CENTCOM has identified 235 supporting systems for which Y2K
      compliance is contingent upon another DOD Component. Of the 235 supporting
      systems, CENTCOM has identified 66 mission-critical systems,
      45 non-mission-critical systems, and 124 systems of which no determination has
      yet been made as to mission-criticality. The CENTCOM has not defined a
      method for determinin g the adverse impact of Y2K date processing in its
      supporting systems.

     The CENTCOM stated that it had identified the owner of all of the systems that
     CENTCOM presently uses. However, a review of the CENTCOM systems
     inventory list indicates that CENTCOM has not identified the owner for 154
     systems and applications. The CENTCOM needs to complete the identification
     of the owners of its supporting systems. Further, CENTCOM needs to
     determine the status of those systems and the mission-criticality placed on those
     systems.

     The CENTCOM has not developed a method for determining the status of those
     supporting systems critical to its mission and, therefore, cannot determine the
     impact of supporting system failure on the mission of CENTCOM. The Joint
     Staff should develop and maintain a comprehensive inventory list of
     mission-critical supporting systems and implement procedures to monitor and
     track the status of those mission-critical systems. Those actions would enable
     CENTCOM and the unified commands to monitor the progress of their
     supporting systems and to prepare operational contingency plans for their
     mission areas, accordingly.

     Commercial Off-the-Shelf Products. The CENTCOM has not determined
     Y2K compliance for 203 of 219 of its listed commercial off-the-shelf products.
     The DOD Management Plan requires that the component not only compile a
     comprehensive list of vendor software used but also, during the Assessment
     Phase, determine whether the vendor software is Y2K compliant. The Joint
     Staff should coordinate with the Assistant Secretary of Defense (Command,
     Control, Communications, and Intelligence) in obtaining Y2K information on
     the Y2K compliance of vendor software and disseminating it to CENTCOM and
     the unified commands.



Interfaces and Written Interface Agreements
     Interfaces. The CENTCOM has not completed identifying system interfaces
     and preparing written interface agreements. As a result, CENTCOM is unable
     to determine the status of those interfaces that may impact the mission of
     CENTCOM. For example, CENTCOM did not identify the Global Command
     and Control System as a systems interface to the CENTCOM Command and
     Control network, although the interface exists. The DOD Management Plan
     states that interfaces involve sending and receiving data among Services,



                                         10
                        Status of the U.S. Central Command Year 2000 Proeram


    Defense agencies, or both, or external DOD vendors. Interfaces are critical to
    the Y2K effort because they have the potential to introduce or propagate errors,
    or both, from one DOD Component to another. The systems of CENTCOM
    interface with or connect to many computer systems belonging to the Services,
    DOD Components, and other organizations. In addition to known interfaces,
    CENTCOM may interface with systems of allied, coalition, and other Federal
    agencies. Because those systems are also vulnerable to Y2K problems, they can
    also introduce or propagate errors, or both, into CENTCOM systems. Timely
    and complete information on all system interfaces that may be affected by Y2K
    changes is critical to the success of the Y2K compliance program of
    CENTCOM. The CENTCOM should complete the identification of system
    interfaces.

    Written Interface Agreements. The DOD Management Plan states that DOD
    Components need to determine the dependency links between internal and
    external systems; determine dependency links between core mission areas,
    processes, and all data exchange entities; and provide for date and data format
    conversions where necessary. A validation process is necessary to ensure
    compliance. The sample Y2K compliance checklist in the DOD Management
    Plan states that DOD Components and each interface partner should negotiate an
    agreement dealing with Y2K issues. The DOD Components and their interface
    partners should discuss and verify that they have implemented consistent Y2K
    corrections for data passed between the systems. The CENTCOM needs to
    prepare written interface agreements to reduce the risk of discovering too late in
    the Y2K effort that an interfacing system will not be able to accommodate the
    agency’s own Y2K changes. The interface agreements should provide for the
    same types of information as in the DOD Management Plan sample Year 2000
    Compliance Checklist.



Contingency Plans
    The CENTCOM has not developed contingency plans for any of its managed
    systems. The DOD Management Plan states that DOD Components should
    develop realistic contingency plans, including the development and activation of
    manual or contract procedures, to ensure the continuity of core processes.
    Contingency plans are to be prepared during the assessment phase and should be
    updated at each successive phase. The CENTCOM stated in its response to an
    Office of the Inspector General, DOD, questionnaire that it had contingency
    plans for each mission-critical system in the event that the system fails to pass
    testing. However, the contingency plans were not documented.




                                        11
Status of the U.S. Central Command Year 2000 Program


      In addition to system contingency plans, CENTCOM should review and assess
      contingency plans for mission-critical supporting systems, as they become
      available, and develop operational contingency plans as needed. The Joint
      Chiefs of Staff Year 2000 Action Plan states that the unified commands are not
      expected to know detailed information about the mission-critical systems
      provided by the Services and Defense agencies. However, the unified
      commands must conduct sufficient planning and establish alternate procedures to
      successfully complete the organization’s mission while the system’s program
      managers and technical staff make necessary year 2000 corrections. The Joint
      Chiefs of Staff Year 2000 Action Plan provides guidance on developing both
      operational and system contingency plans.



Testing and Compliance Checklists
      The CENTCOM reports that 8 of 15 managed systems are ‘Y2K compliant, and
      3 of 9 mission-critical managed systems are Y2K compliant. The CENTCOM
      had tested and completed compliance checklists for 4 of the 15 managed systems
      but had not provided documented test plans to show how the systems were
      deemed compliant.

     Testing. The DOD Management Plan states that DOD Components need an
     extensive period of time to adequately validate and test converted or replaced
     systems for Y2K compliance. DOD Components not only must test for Y2K
     compliance of individual applications, but must also test the complex
     interactions between scores of converted or replaced computer platforms,
     operating systems, utilities, applications, databases, and interfaces. All
     converted or replaced system components introduced during the “renovation”
     phase must be thoroughly validated and tested to uncover errors, validate Y2K
     compliance, and verify operational readiness. The Joint Staff should assist the
     unified commands in testing systems and applications common to the unified
     commands.

      The CENTCOM has a general automated data processing contract in place,
      which can be used for Y2K testing. The Command, Control, Communications,
      and Computer Systems directorate has a computer laboratory configured for
      testing personal computer-based systems and limited testing of Sun-based
      systems or systems operating from a solaris operating environment.
      Additionally, Combat and Analysis has a computer laboratory setup for testing
      Sun-based systems.

     Compliance Checklists. As stated in this section, the contractor has validated
     Y2K compliance for 4 of the 15 managed systems; 1 system is mission-critical.
     The validation process requires the system manager to complete the DOD
     Management Plan checklist and certify the level of Y2K compliance. Although
     the contractor has signed the checklists, the contractor has not provided
     documented test plans. Additionally, the contractor did not certify the level of
     Y2K compliance for each of the four systems. The CENTCOM has not




                                         12
                        Status of the U.S. Central Command Year 2000 Program


    identified all the system interfaces that require testing. The CENTCOM should
    test mission-critical vendor software for Y2K compliance and should document
    test plans to show how managed systems are Y2K compliant.

    The Joint Interoperability Test Command provides general assistance in Y2K
    resolution that includes test planning, test case development, and solution
    recommendations. In addition, the Joint Interoperability Test Command can
    provide specific assistance in support of a system to include analysis of
    hardware platforms and software application packages, development and
    execution of a Y2K test plan, recommendations to resolve Y2K impacts, and
    implementation of resolution recommendations.



Component Commands
    The CENTCOM has limited oversight over its component command
    Y2K problems and solutions, except for interfaces, because the CENTCOM
    component commands report the Y2K status of those systems through Military
    Departments. As a result, CENTCOM does not know how the Y2K issues will
    impact the overall mission of CENTCOM. Because the CENTCOM mission
    will involve the component commands, the resolution strategy and
    implementation of that strategy is a dual responsibility of CENTCOM and its
    component commands. Therefore, CENTCOM should coordinate Y2K
    solutions and contingency plans with the component commands, in accordance
    with the DOD Management Plan.



Use of Selected Command and Joint Exercises to Test Y2K
Scenarios
    The CENTCOM could use selected command and joint exercises to test and
    measure the extent of potential Y2K problems that face the warfighter and to
    allow time to correct critical problems. The DOD Management Plan states that
    testing should take place in a realistic test environment and should account for
    the interoperability of system interfaces. The use of selected joint exercises to
    test Y2K scenarios in an operational environment would provide CENTCOM
    and the other unified commands the opportunity to test and validate systems in a
    realistic test environment.

    Unified command exercises test operational plans, validate force apportionment,
    support political and military relationships and objectives, and foster regional
    engagements of unified commanders. Joint exercises include joint training
    events based on approved joint doctrine that prepares joint forces or staffs to
    respond to operational requirements established by the combatant commanders
    to accomplish their assigned missions. Mission focus is critical to the
    effectiveness and efficiency of joint training exercises. The goals of joint
    training are to prepare for war, prepare for military operations other than war,
    prepare for multinational operations, and integrate the interagency process. The


                                       13
Status of the U.S. Central Command Year 2000 Program


      joint exercises focus on plans, policies, procedures, and training required to
      ensure that senior leaders can effectively direct and integrate U.S. and coalition
      military forces during war. Common operational joint tasks are activities
      conducted by or for multiple supported commands under similar conditions and
      to a common joint standard. The common tasks are selected by multiple
      combatant commands through the mission analysis process, and they describe a
      list of core joint competencies that are fundamental to joint operations. The
      common joint tasks include the following:
             a   conducting operational movement and maneuvers,
             l   developing operational intelligence,
             0   employing operational firepower,
             l   providing operational support,
             l   exercising operational command and control, and
             l   providing operational protection.

     Because of time constraints posed by Y2K issues, using selected command and
     joint exercises to test Y2K scenarios may assist CENTCOM in making further
     progress to identify and resolve Y2K problems. Inspector General, DOD,
     Report No. 98- 129, “U. S . Special Operations Command Year 2000 Issues, ”
     May 8, 1998, recommended that the Joint Staff integrate year 2000 scenarios
     into operational requirements in joint exercises in FY 1998 for the purposes of
     determining the extent of potential Y2K impact on the continuity of the
     warfighter.

      The House bill to authorize appropriations for FY 1999 for the Department of
      Defense, H. R. 3616, proposes that the Secretary of Defense submit to
      Congress a report containing a plan to include simulated Y2K scenarios in
      military exercises conducted from January 1, 1999, through
      September 30, 1999. The plan shall include military exercises conducted under
      the Chairman of the Joint Chiefs of Staff Exercise Program. Additionally, the
      plan is to cover systems excluded from the exercise and provide an explanation
      of how the military exercise will use an excluded system’s Y2K contingency
      plan.

      Performing command and joint exercises to test Y2K interoperability of system
      interdependencies and interfaces may not be possible in some instances if the
      Services and Defense agencies have not made and implemented the necessary
      Y2K corrections to the required systems. In such cases, testing contingency
      plans in an operational environment would be necessary. Testing contingency
      plans will help CENTCOM assess its capability to continue operations if
      systems fail because of Y2K problems.




                                          14
                        Status of the U.S. Central Command Year 2000 Program



Conclusion
    Although CENTCOM has made initial progress, CENTCOM must continue to
    address several critical issues. The CENTCOM has recognized the importance
    of solving Y2K problems in systems to reduce the risk of Y2K failure, but
    CENTCOM must take a more aggressive approach to dealing with Y2K for
    supporting systems and commercial off-the-shelf products to ensure that it is
    well-positioned to deal with unexpected problems and delays. Unless the
    Services and Defense agencies make further progress, CENTCOM faces a high
    risk that Y2K-related disruptions will impair its mission capabilities. Therefore,
    CENTCOM must continually monitor and assess the progress of supporting
    systems and prepare contingency plans for its mission areas, accordingly. A
    Joint-Staff-prepared composite DOD mission-critical database would greatly
    facilitate the ability of CENTCOM and the other unified commands to monitor
    the progress of its supporting systems and prepare contingency plans for its
    mission areas. Copies of this report are being provided to all unified commands
    to facilitate self reviews of Y2K efforts.



Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Commander in Chief, U.S. Central Command:

          a. Monitor revisions to the DOD Year 2000 Management Plan and
    implement the revisions into the U.S. Central Command Year 2000 project
    plan.

           b. Monitor the Joint Staff unified command supporting systems list
    to determine the status of its supporting systems and assess the impact to
    the U.S. Central Command area of responsibility mission and develop
    operational contingency plans accordingly.

           c. Complete the identification of mission-critical supporting systems
    that Services or other organizations manage and the owners of all of its
    supporting systems.

           d. Complete the identification of system interfaces and prepare
    written interface agreements for mission-critical systems that the U.S.
    Central Command manages.

           e. Develop contingency plans for U.S. Central Command managed
    mission-critical systems.

           f. Review and assess contingency plans for mission-critical
    supporting systems and develop operational contingency plans as needed.




                                        15
Status of the U.S. Central Command Year 2000 Program


             g. Research year 2000 compliance of vendor software and test
      mission-critical vendor software for year 2000 compliance.

             h. Document test plans to show how managed systems were deemed
      compliant and determine the level of year 2000 compliance.

             i. Coordinate year 2000 solutions and contingency plans with U.S.
      Central Command component commands.

             j. Use selected command and joint exercises to test year 2000
      scenarios in an operational environment.

      Management Comments. The U.S. Central Command concurred with all of
      the recommendations, stating progress made and future intentions for each
      recommendation.

      2. We recommend that the Director, Joint Staffi

             a. Develop and maintain a comprehensive inventory list of
      mission-critical supporting systems to enable the unified commands to
      monitor the progress of the Services and agencies and to assess the impact
      of mission operations.

             b. Assist the unified commands in obtaining year 2000 information
      on mission-critical supporting systems that Services or other organizations
      manage.

             c. Implement procedures to monitor and track the status of
      mission-critical supporting systems.

              d. Coordinate with the Assistant Secretary of Defense (Command,
      Control, Communications, and Intelligence) to obtain and disseminate
      year 2000 information on commercial off-the-shelf and Government
      off-the-shelf products.

             e. Assist the unified commands in testing systems and applications
      that are common to the unified commands.

             f. Integrate year 2000 scenarios into operational requirements in
     joint exercises starting in F’Y 1998 for the purposes of determining the
     extent of potential year 2000 impact on continuity of warfighter operations.

      Management Comments. The Joint Staff concurred with all of the
      recommendations, stating progress made and future intentions for each
      recommendation.




                                        16
Part II - Additional Information
Appendix A. Audit Process

        This report is one in a series of reports being issued by the Inspector General,
        DOD, in accordance with an informal partnership with the Chief Information
        Officer, DOD, to monitor DOD efforts to address the Y2K computing challenge.
        For a listing of audit projects addressing this issue, see the Y2K webpage on
        IGnet at < http://www.ignet.gov > .



Scope
        We reviewed and evaluated the status of the progress of CENTCOM in
        resolving the Y2K computing issue. We evaluated the Y2K efforts of
        CENTCOM, compared with those efforts described in the DOD Management
        Plan issued by the Assistant Secretary of Defense (Command, Control,
        Communications, and Intelligence) in April 1997. We obtained documentation
        including the CENTCOM Y2K project plan, the CENTCOM Y2K responses to
        the Office of the Inspector General, DOD, Y2K questionnaire, and systems
        inventory database information as of January 1998. We used the information to
        assess efforts related to the multiple phases of managing the Y2K problem.

        DOD-Wide Corporate Level Government Performance and Results Act
        (GPRA) Goals. In response to the GPRA, the Department of Defense has
        established 6 DOD-wide corporate-level performance objectives and 14 goals for
        meeting the objectives. This report pertains to achievement of the following
        objectives and goals.

           l   Objective: Prepare now for an uncertain future. Goal: Pursue a
               focused modernization effort that maintains U. S . qualitative superiority
               in key war fighting capabilities. (DOD-~)

           l   Objective: Fundamentally reengineer DOD and achieve a 21st century
               infrastructure. Goal: Reduce costs while maintaining required military
               capabilities across all DOD mission areas. (DoD-6)

        DOD Functional Area Reform Goals. Most major DOD functional areas have
        also established performance improvement reform objectives and goals. This
        report pertains to achievement of the following functional area objectives and
        goals.

           l   Information Technology Management Functional Area. Objective:
               Become a mission partner. Goal: Serve mission information users as
               customers. (ITM-1.2)

           l   Information Technology Management Functional Area. Objective:
               Provide services that satisfy customer information needs. Goal:
               Modernize and integrate Defense information infrastructure. (ITM-2.2)



                                            18
                                                      Appendix A. Audit Process


    General Accounting Office High-Risk Area. The General Accounting Office
    (GAO) has identified several high-risk areas in the DOD. This report provides
    coverage of the Information Management and Technology high-risk area.



Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from January through March 1998 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. We did not use
    computer-processed data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.

    Management Control Program. We did not review the management control
    program related to the overall audit objective because DOD recognized the Y2K
    issue as a material management control weakness area in the FY 1997 Annual
    Statement of Assurance.



Prior Audit Coverage
    The General Accounting Office and the Inspector General, DOD, have
    conducted multiple reviews related to Y2K issues. General Accounting Office
    reports can be accessed over the Internet at http://www.gao.gov. Inspector
    General, DOD, reports can be accessed over the Internet at
    http://www.dodig.osd.mil.




                                       19
Appendix B. Other Matters of Interest


External Reporting
     The DOD Components are required to provide information to the Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     on a quarterly basis. The reason for that reporting is to give the visibility
     necessary to ensure a thorough and successful transition to Y2K compliance for
     all DOD systems.

     Quarterly Report Input. The quarterly report dated January 16, 1998,
     prepared by the Joint Staff and sent to Assistant Secretary of Defense
     (Command, Control, Communications, and Intelligence), does not reflect the
     status of the CENTCOM systems. The CENTCOM reported 15 systems as
     CENTCOM Y2K reportable systems, 9 of which it identified as critical to its
     mission. However, the Joint Staff reported 20 CENTCOM systems and
     reported no systems as mission-critical. Based on the documentation that
     CENTCOM provided, the Joint Staff should have reported the following to
     Assistant Secretary of Defense (Command, Control, Communications, and
     Intelligence) about the CENTCOM mission-critical systems:


     Number being replaced                              5
     Planned terminations                               1
     Number of non-compliant systems                    6
     Number of compliant systems                               3*
     Total number of mission-critical systems                  9

     *Only one mission-critical system has been certified as Y2K compliant.
     CENTCOM relied on vendor and in-house certification.




Cost Estimates
     The CENTCOM estimates that Y2K compliance will cost $250,000 for testing
     and implementation of its systems. However, all CENTCOM-managed systems
     and legacy systems will be made Y2K compliant as part of their normal
     life-cycle maintenance. The CENTCOM-developed software has been rewritten




                                        20
                                           Appendix B. Other Matters of Interest


   as part of the CENTCOM network migration. The CENTCOM does not
   anticipate additional funding or materials requirements strictly for Y2K
   compliance.



CENTCOM      Areas of Concern
   The CENTCOM expressed concern about the systems that are out of its control.
   The CENTCOM believes that contact with program managers is necessary to
   determine both Y2K solutions and status. The Joint Staff can provide
   assistance, especially with those systems and commercial off-the-shelf products
   common to the unified commands. The CENTCOM suggested that the common
   operating environment is another area of concern because DOD is constantly
   changing the common operating environment. The CENTCOM stated that DOD
   needs to stabilize the operating environment until the Y2K problem has been
   solved.




                                      21
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Year 2000 Oversight and Contingency Planning Office
Assistant Secretary of Defense (Public Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief Information Off&r, Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force




                                         22
                                                       Appendix C. Report Distribution



Unified Commands
Commander    in   Chief,   U.S.   European Command
Commander    in   Chief,   U.S.   Pacific Command
Commander    in   Chief,   U.S.   Atlantic Command
Commander    in   Chief,   U.S.   Southern Command
Commander    in   Chief,   U.S.   Central Command
Commander    in   Chief,   U.S.   Space Command
Commander    in   Chief,   U.S.   Special Operations Command
Commander    in   Chief,   U.S.   Transportation Command
Commander    in   Chief,   U.S.   Strategic Command

Other Defense Organizations
Director, Defense Contract Audit Agency
   Chief Information Officer, Defense Contract Audit Agency
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
Director, Defense Legal Services Agency
   Chief Information Officer, Defense Legal Services Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory Affairs
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate   Committee on Appropriations
  Senate   Subcommittee on Defense, Committee on Appropriations
  Senate   Committee on Armed Services
  Senate   Special Committee on the Year 2000 Technology Problem
  Senate   Committee on Governmental Affairs
  House    Committee on Appropriations
  House    Subcommittee on National Security, Committee on Appropriations
  House    Committee on Governmental Reform and Oversight




                                               23
Appendix C. Report Distribution




Non-Defense Federal Organizations and Individuals (cont’d)
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                       24
Part III - Management Comments
U.S. Central Command Comments


                            UNlTED STATes CENTRAL COMMAND
                            OFFICEOFTHECOMMANDERINCHlEF
                               7115 Soul-H BOUNDARYBouImARD
                            MACDILLAIR FORCZBASE.FWRJDA 336%5101



     CCIG


     MEMORANDUMTHRUDIRE4TOR,JOINT STAFF,PENTAGON,WASHINGTON.DC
                     20318

     FOR INSPECTORGENERAL,DEPARTMENTOF DEFENSE.400 ARMYNAVY DRIVE,
                        ARLINGTON.VIRGINIA22202-2884

     SUBJECT    Audit   Report on U.S. Cc&al humand Year 2000 Lsua (Rojcct No.
                                  8AS-ooo5.01)


     1. The Kim of my i&m&on tahology systems would scvaely degrade my ability to carry
     out the mission ofU.S. Centml Commandaud so I @ok you for providing an audit of our efforts
     to sohe the Year 2ooo probkll. we have rcvicwcd your audit report, concur with the
     rscommahtions, and arc taking actions to implementthose ncomm eodatiolts.

     2. sp&ccnomcnt3orlyourr#nnm            cndati~arc~losed.  WeIemaindedicatcdto
     nssohing Year 2tXNlpmbhs with our mission-c&al hfhmation tccbnology systems. My
     point of amtact for Year 2Ci0Jissues is Lt Co1Zuzack,CC&DI. at (813) 828-0059,
     DSN 968-0059.




     Ed
     as
                                              Comaandcr
                                                     in Chief




                                      26
                                                     U.S. Central Command                       Comments




Audit Rqxxt on U.S. Central CommandYear 2000 Issues (project No. gAS4006.01)

Recommea&Uon a: Monitor revisions to the DODYear 2000 Msqanent             Plpn md
~l~enttherevisionsintotheUS.centrplcoarmpndY~2ooOprojectplyl.

USCENTCOM Commnb: Concur. U.S. Central Command’s Year 2000 Project Plan is a
liviagQcummtbasedontheEumntDoDYear2000Manngemc4tPlan.             Chaqestothe
management plan can e&y be knpomtal into our project plan as appropriate.

Rrcommention      b: Monitor the Joint Staffuuificxlcommand supporting systems list to
detaminethe~0fits~syannSandclsseastheimpacttotheU.S.~~
Command area of m5ponsiiility mission and develop opcmtional contingmcy plans accordingly.

USCENTCOM Comments: 0xcur. The Joint Staff is doing a good job of consolidating
informstion~mtbermificd~~determiningthestaftroofthoscsystcmfthat
multiple CINCs. Reviewing their documa&tion will help us detuminc if we are at risk and
what canlirIgalcy plims may be ncce%ary.

Rccommemdation c: Compktc the ida&katioo of missionuitical supporting systems that
Services or 0th~ org&ations manage and the owners of all of its supporting syrtemr.

USCENTCOM Commca~            Conch. Prcgcss in identifying which of the systems in use
within USCENTCOMand the o-           of those systans is a regular pzutof our Year 2000
quukrlyrqxntstotheJoiutStaff.

Recommendation& Complctctbcidcn&ationofsys&minterksandpnppnwxittcn
k&face agrumcnts for mksion&iticalsystansthatthcu.s.CcQtralcommandmaaagcs.

USCENTCOMCommmllb: Conzur.Pmgrcssinidentifyingsystems-isorcgularpart
ofourYear2oooqut4yrqoltstotheJoiutStaff. wewillupdatctherqortstoindicate
whcthcrornotanintuf&agramc&cxists.

Recommen&tion c: Dkvelopumtingency pl8as for U.S. Central Command managed mission-
cJiticalayskms.

UsCENTmM C-b:                concur. U.S. Culkal Commaud is takirlg action to make our 17
~YernZOOO~~bytheadofthisyearsadhavesnPddikpalycartockanupany
systemswt~hrvemissed.we&DotapectmyYcnr2OOOrelptedproblanstocwse
catasbmphicfailures. We will prepare continguxy plans for any system whose progress begins to
Slip.




                                   27
U.S. Central Command Comments




         Recommerdatlon f: Review and assess contingency plans for rnission4tical      supporting
         systemsanddevelopoperatiionalco&genqpbmsasneedal.

         USCENTCOM Commet~ts: Concur. Reviewing mission-critical syqrting systems
         contingency plans will help us determine ifwe are at risk and what additional umtingency plans
         maYbenacesserY.

         R~~mmddo~          gt Research Year 2000 complisncc of vendor software and test mission-
         critical vendor so&are for Year 2000 compliance.

         USCENTCOM Commentr: Concur.We arerarearching          theYear 2000 compliance status of
         COTSplUdUCtSUSedinUscENTco        Mbutonlytboscpmductsnottestedbyotherfcderal
         agtiesnecdtobeumsidexedt3rtesting     byUSCENTCOM.

         Reco~~memdaHoo h: Document test plans to show how msnaged systems wae deaned
         compliant and de&mine the level of Year 2000 complii

         USCENTCOM Comments: Concur. Al!hougb testing cm not provide lOO?Aassumnce a
         problem will not occur, documenting the tests will allow us to know which SW&OS have
         ahxady been looked at, reduckg future testing should problems occur.

         Reconlmem&tion i: coordinate Year 2ooo solutions and contingulcy plans with U.S. central
         command component unImla&.

         USCENTCOM Comncmtr: Concur.USCENTCOMwelcomes the sharing of hfomution
         wiulitscomponent-

         Rummu~dation j: Useselected wmmand and joint exacises to test Year 2000txenariosin
         an operational envin3nment.

         USCENTCOM Comments: Co=.               Ding exh           we use opmtiod systms. ‘lItus,
         tmning the cbcks ahead during exacises could impact real world operations. However,a
         ca&uUy designed scenario, utilizing systems isolated from the opem&al environment, could
         be effectively and safely used to de&mine if critical systems are ready for the Year 2000.




                                            28
   Joint Staff Comments

                                            TMt JOINT STAFF
                                              wAanI~ow. oc




              F&ply ZIP Code:                                           DJSM 663-98
              20318-0300                                                19 June 1998


              MEMORANDUMFOR THE INSPECTOR GENERAL, DEP-NT                      OF
                            DEFENSE

              Subject:   Audit Report on US Central Command Year 2060 Issues

              1. The Joint Staff endorses your suggestions to improve the Year 2660 posture
                the US          Command fUSCEmOMI.1 We are fully committed to
              ensuring the warfighttng missions of the combatant commands wfil be
              conducted without Year 26CKbrelated mission degradation.
              2. Your draft audit report included findings for both the Joint Staff and
              USCENfCOM. The Joint Staffs management comments on the draft audit are
              described in Enclosure A USCENTCOkfs management comments are shown
              at Enclosure B.                                                                 *

              3. ?he Joint Staff point contact     Year     actions     Lieutenant
              Ramona           J6V.            117,     225-2
              mmonabames@js.pentagonmil.




                                                        Vice AdmixaL U.S. Navy
                                                        Director, Joint St&

              Enclosures

              Reference:
              1 IG/DOD memorandum, 22 April 1998, -Audit Report on US. Central
                Command Year 26O6 &sues (Project No. 8AS-6666.010-




*Enclosure B not included because CENTCOM submitted comments separately.




                                                       29
Joint Staff Comments




                                                 ENCLOSUREA

          JOINT STAFF COMMKNTSON AUDIT RKPOKTON US CEIWRALCOMMAND
                     YKAR2000 ISSUKS (PROJECT NO. SAWOO6.01)


        REcoLIIIIELIRuTION 1: Develop and mahtah a comprehensive inventory list
        of mission-crhfcaf supporting systems to enable the unified commands to
        monitor the progress of the Services and agencies and to assess the impact of
        mfssion operatfons.

        JOINT STAFF COMMENTS:Concur. The Joint Staff Year 2000 Coordfnator
        maintains a list of supporting systems ldentifled by the combatant commands.
        The Department of Defense Year 2000 Project Office Is developing a data base
        of all mission critical and non-mission crltlcal systems in the Department. The
        Joint Staff and combatant commands will have access to this data base for
        researching Y2K status of supporting systems.

        RECOlUMEKDATIOK 2. Assist the unified commands in obtaining year 2000
        information on mission-critical supporting systems that Services or other
        organizations manage.

        JOINT STAFF COMMENTS:We are working closely with the services and
        Defense agencies to ensure mission crltlcal supporting systems identified by the
        combatant commands are addressed as mission critfcal by the system owners.
        Additionally, the Joint Stsff has functional proponents across the staff who are
        engaging on war-fighting issues resulting horn the Year 2000 challenge. Since
        the Offfce of the Secreuuy of Defense for Command, Control, Communica-
        tions, and fntellfgence fOSD/CSI) decfded to terminate the use of the Defense
        Integrated Support Tools IDISIl data base for Year 2000 reportfng, the Joint Staff
        is actively supportfng the DOD Y!ZKProject OffIce initiative to create a new DOD
        Y2K mission critical systems data base to give the warfighters visfbiiity into Year
        2000 acttons for all such systems supporting their respective mtssions.

        RECOMMBFUUTZON31 Implement procedures to monitor and track the
        status of mission-crltkal supporting systems.

        JOINT ST-       COMMBNTS: Concur. The Joint Staff engages in signifkant
        coordination wtth the services and Defense agencies on Y2K status of mission
        critkaJ supporting systems. ‘Ihe Joint Staffs strong involvement in the
        development of a DOD-wide systems data base to catalog Y2K status and
        ongoing initiatives will further enhance the information flow.

        RECOMMENDATION      4: Cwrdinate with the Assistant Secretary of Defense
        (Command, Control, Communications. and Intelligence) to obtah and


                                                                            Enclosure A




                                     30
                                                               Joint Staff Comments




disseminate Year 2000 information on commercial off-the-shelf and
Government off-the-shelf products.

JOlF4TSTAFFCOMMEN'iS Concur. The Joint Staff is actively engaged in
obtaining Y2K updates from commercial industry and government off-the-shelf
product suppliers. This is an area of concern across the Federal government.

RECOMMENDATIONCs: Assist the unified commands In testing systems and
appkations that are common to the unified commands.

JOXHTSTAFFCOMMENTSz Concur. The Joint Staff has been facilitating the
use of the Joint InteroperabIlity Test Command (JRC] for Year 2000 testing of
systems owned by the unified commands. as well as those owned by the
Sew&s and Defense agencies that support combatant command mIssions.
AddMona&, the Joint Staff engages the vendors that provide the many
commercial-off-theshelf products common to the combatant commands on
Year 2000 Issues.

RECOMMENDATION6. Integrate Year 2000 scenarios into operational
rcquirtments in joint exercises starting In FY 1998for the purposes of
determining the extent of potential Year 2000 impact on continuity of
warfighter operations.

JOXNTSTAFFCOMMENTS~ Concur. The Joint Staff is developing a Year
2000 OperationsJ hraluation Plan for use by the unified commands and the
Services during exercises and other opportunities kom now until Year 2000.
Our goal is to ensure missions do not fall due to Y2K perturbations.




                                                                    Enclosure A




                                          31
    Audit Team Members
    The Acquisition Management Directorate, Office of the Assistant Inspector
    General for Auditing, DOD, produced this report.
r


    Thomas F. Gimble
    Patricia A. BramCn
    Mary Lu Ugone
    Dianna J. Pearson
    Scott S. Brittingham
    Richard B. Vasquez
    Jennifer L. Zucal
    Maria R. Palladino
